HHS/OIG, Audit -"Audit of University of Alabama at Birmingham Hospital's Organ Acquisition Costs Claimed for
the Period October 1, 2000, through September 30, 2001,"(A-04-04-00001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of University of Alabama at Birmingham Hospital's Organ Acquisition Costs Claimed for the Period October 1, 2000,
through September 30, 2001," (A-04-04-00001)
December 23, 2004
Complete
Text of Report is available in PDF format (787 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether organ acquisition costs claimed on the fiscal year
(FY) 2001 Medicare cost report by the University of Alabama at Birmingham (UAB) Hospital for its kidney, liver, pancreas,
lung, and heart transplant programs were allowable.  The UAB Hospital’s procedures were not adequate to separately
accumulate and report certain costs and revenues associated with organ acquisition activities.  UAB Hospital claimed
$1,665,866 in unallowable organ acquisition costs and did not offset revenue of $272,510 or include the associated ancillary
costs of $75,574 on its FY 2001 cost report.  Consequently, Medicare overpaid UAB Hospital an estimated $913,208 in
FY 2001.  We made procedural recommendations and recommended that the Medicare intermediary recover the overpayment
of $913,208.